*

APPENDIX

la
APPENDIX A

3fn tlje

Mnitetr States Court of Appeals!
Jfor tlje i?>etjentf) Circuit
Gerald Dix,
Plaintiff-Appellant,
u.
Edelman Financial Services, LLC*, et al.,
Defendants-Appellees.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 17-CV-6561 — Charles R. Norgle, Judge.

Argued September 17, 2020
Decided October 19, 2020
Before Kanne and Hamilton, Circuit Judges.**

* Despite being the first-named defendant, Edelman
is virtually irrelevant to this appeal for reasons made
apparent in this opinion.
** Circuit Judge Barrett was a member of the panel
when this case was submitted but did not participate in
the decision and judgment. The appeal is resolved by a
quorum of the panel pursuant to 28 U.S.C. § 46(d).

2a

Per Curiam. Gerald Dix alleges that he was
unlawfully evicted. But unlike most wrongful-eviction
plaintiffs, Dix filed a sprawling pro se complaint in
federal court asserting nineteen claims against almost
as many defendants. The claims included a
hodgepodge of state and federal causes of action. The
defendants included Dix's alleged romantic-interestturned-landlady Theresa Miller, Miller's real estate
broker and financial advisor, a handful of police
officers, two municipalities, the local car-towing
company, and a few John and Jane Does for good
measure.
The experienced district judge dismissed Dix's
complaint for failure to state a claim. On appeal, we
have focused on just one cause of action—Dix's Fourth
Amendment claim against a subset of the
defendants— because the others are wholly frivolous.
We conclude that Dix's allegations as to that claim,
like the rest, do not state a claim for relief, so we
affirm the district court.
I. BACKGROUND
These facts are drawn from Dix's amended
complaint and—with notable exceptions explained in
this opinion—are assumed to be true for purposes of
this appeal. Gomez v. Randle, 680 F.3d 859, 861 (7th
Cir. 2012). We have weeded out the bulk of Dix's
allegations and concentrate only on those pertinent to
his Fourth Amendment claim.
Gerald Dix lived with Theresa Miller in her home
in Lisle, Illinois, for nearly six years. Their
relationship had once been romantic, but somewhere
along the way it morphed into what Dix describes as
a platonic “landlord-tenant” arrangement, albeit
without a term or payment of rent. Dix would share

3a

living expenses with Miller and perform household
chores. For her part, Miller would provide Dix with
living space in her basement. But she also did all the
things that no good landlady would do—“badger and
harass” Dix for more money; force him to make repairs
and do onerous tasks, such as serving her meals in
bed; rummage through his mail and possessions; use
his credit cards; clutter up every corner of the house;
and keep the home in a “barely habitable” condition.
In 2017, Miller decided to sell her house and was
advised by her realtor, Cheryl Shurtz, to “stage” it for
prospective buyers. Miller told Dix to move out so she
could prepare the house to be staged. He refused, so
Miller called the police. Four or five officers responded
and told Miller that she could not evict Dix without an
order of the court. Undeterred, she called the police
again the next day. This time, Officers Rob Sommer
and Sean McKay arrived.
Officers Sommer and McKay allegedly knew that
there had been no domestic disturbance and that
Miller had been told she couldn't remove Dix from her
house without a court order. But they agreed to help
Miller evict Dix anyway. The officers prevented Dix
from entering the house while Miller and an unknown
associate (“a lazy elderly woman”) hauled Dix's things
outside and deposited them on the driveway. Dix
protested, suspecting that Miller was stealing or
destroying his property. And as he watched Miller and
her helper carelessly handling his possessions, Dix
started hurling insults and called Miller's associate
“stupid.” Officer Sommer warned Dix not to call
anyone “stupid” (or “a dingbat, ding-a-ling, idiot or
‘stupid b—‘”) and threatened to arrest him for
disorderly conduct. Dix held his tongue, but not before

4a

asserting his right to call anybody "any proper or
slang term that he deemed necessary."
Eventually, and in part because Miller and her
“lazy” associate couldn’t finish the job themselves, Dix
relented and agreed to vacate the house. He left to get
a moving van, and when he returned, the officers
allowed him into the home to retrieve his property but
physically refused him access to certain rooms. After
Dix gathered his things, Officer Sommer ordered him
to hand over his keys to the house. Dix complied, and
the officers told Dix not to return except to fetch his
Dodge truck that still sat in the driveway.
In short order, Dix filed his initial complaint, pro
se, in federal court. He asserted twelve causes of
action against nine defendants. The district court
struck the pleading as “replete with redundant,
impertinent, and scandalous allegations.” The court
permitted Dix to amend his complaint but warned
that “frivolity may result in sanctions.”
Dix took up the offer to amend his complaint —but
instead of improving it, he added seven causes of
action, five defendants, and sixty-nine paragraphs of
allegations. Among his nineteen claims was a federal
cause of action under 42 U.S.C. § 1983 against Miller,
Shurtz, and Officers Sommer and McKay for
violating, and conspiring to violate, Dix’s Fourth
Amendment rights. He sought not less than
$1,095,000 in compensatory and punitive damages,
plus costs, attorney fees, and preliminary and
permanent injunctive relief.
The district court dismissed all of Dix’s claims with
prejudice. Among other things, the court concluded
that Dix did not adequately allege a Fourth
Amendment violation because he was free to leave at

5a

any time and a potentially unlawful eviction under
state law does not implicate the Fourth Amendment.
Dix appealed, again acting pro se. After reviewing
Dix’s opening brief, we decided that he would benefit
from appointed counsel on appeal. Dix refused
counsel, so we appointed an amicus curiae instead. We
instructed the amicus to focus on the only one of Dix's
nineteen claims that we felt was not completely
frivolous—the Fourth Amendment claim.1
II. Analysis
“We review a 12(b)(6) dismissal de novo and
construe all allegations and any reasonable inferences
in the fight most favorable to the plaintiff. And while
a complaint does not need ‘detailed factual
allegations’ to survive a 12(b)(6) motion to dismiss, it
must allege sufficient facts ‘to state a claim to relief
that is plausible on its face.’” League of Women Voters
of Chicago v. City of Chicago, 757 F.3d 722, 724 (7th
Cir. 2014) (citation omitted) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007)) (citing Killingsworth v. HSBC
Bank Nev., N.A., 507 F.3d 614, 618 (7th Cir. 2007)).
Although “we accept the well-pleaded facts in the
1 In our June 19, 2019 order, we stated: “After
reviewing the wide range of claims alleged and argued by
Dix, the court encourages counsel to focus attention on the
Fourth Amendment claims against Officers Sommer and
McKay, and against Miller and Edelman Financial
Services.” Miller rightly pointed out that Dix's Fourth
Amendment claim was asserted against Officers Sommer
and McKay, Miller, and Shurtz (not Edelman). In any
event, the amicus appropriately opted to tailor his
argument to focus only on Miller and Officers Sommer and
McKay.

6a

complaint as true, legal conclusions and conclusory
allegations...are not entitled to this presumption of
truth.” McCauley v. City of Chicago, 671 F.3d 611, 616
(7th Cir. 2011) (citing Ashcroft u. Iqbal, 556 U.S. 662,
681, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)). And “we
may affirm a dismissal on any ground supported by
the record.” Kowalski v. Boliker, 893 F.3d 987, 994
(7th Cir. 2018) (citing Sykes v. Cook Cnty. Cir. Ct.
Prob. Div., 837 F.3d 736, 740 (7th Cir. 2016); Giffin v.
Summerlin, 78 F.3d 1227, 1230 (7th Cir. 1995)).
The Fourth Amendment states, in pertinent part,
that “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches or seizures, shall not be
violated.” U.S. Const., amend. IX.
Dix Contends on appeal that the district court
should not have dismissed his Fourth Amendment
claim brought under 42 U.S.C. § 1983 because (1) he
alleged that his removal from Miller's home was a
Fourth Amendment seizure; (2) he alleged that that
seizure was unreasonable; (3) he alleged a conspiracy
between the officers and Miller to violate his Fourth
Amendment rights; and (4) the officers are not
entitled to qualified immunity. We take these in turn.
A. Dix Did Not Allege a Fourth Amendment
Seizure.
“A ‘seizure’ of property occurs when there is some
meaningful interference with an individual's
possessory interests in that property.” United States
v. Jacobsen, 466 U.S. 109, 113, 104 S.Ct. 1652, 80
L.Ed.2d 85 (1984); accord Segura v. United States, 468
U.S. 796, 806, 104 S.Ct. 3380, 82 L.Ed.2d 599 (1984)
(“A seizure affects only the person's possessory
interests; a search affects a person's privacy

7a

interests.”); United States v. Burgard, 675 F.3d 1029,
1033 (7th Cir. 2012) (“[T]he critical question relates to
any possessory interest in the seized object, not to
privacy or liberty interests.”). So the first issue—
whether Dix alleged that he suffered a “seizure”
within the meaning of the Fourth Amendment—turns
on whether he alleged facts sufficient to support the
inference that he had some possessory interest in
Miller's home.2
Dix argues that he adequately alleged a possessory
interest in Miller's home because he refers to himself
as Miller's “tenant” and alleges that they “had an oral
contract for their landlord-tenant relationship.” If
that were true, then Dix may have alleged a protected
interest in the property, and the officers may have
infringed on his right “to retreat into his own home,”
which stands “[a]t the very core” of the Fourth
Amendment. Silverman v. United States, 365 U.S.
505, 511, 81 S.Ct. 679, 5 L.Ed.2d 734 (1961). Indeed,
2 The district court dismissed Dix’s Fourth Amendment
claim on a different basis. The court concluded that Dix
premised the claim entirely on his contention “that he was
‘wrongfully’ evicted in violation of the Illinois Forcible
Entry and Detainer Act, 735 Ill. Comp. Stat. 5/9-101, et
seq.," and because the “mere violation of a state statute
does not infringe the federal Constitution,” the claim must
fail. Snowden v. Hughes, 321 U.S. 1, 11, 64 S.Ct. 397, 88
L.Ed. 497 (1944); see also Gordon v. Degelmann, 29 F.3d
295, 301 (7th Cir. 1994) (holding that an officer’s failure to
comply with the Illinois Forcible Entry and Detainer Act
“does not matter” for purposes of a Fourth Amendment
claim). We do not opine on this holding and instead
exercise our authority to affirm the district court on
alternative grounds that are apparent in the record and
argued on appeal. Kowalski, 893 F.3d at 994.

8a

the Supreme Court has explained that under the
Fourth Amendment, “the right against unreasonable
seizures would be no less transgressed if the seizure
of [a] house was undertaken to collect evidence, verify
compliance with a housing regulation, effect an
eviction by the police, or on a whim, for no reason at
all.” Soldal v. Cook Cnty., 506 U.S. 56, 69, 113 S.Ct.
538, 121 L.Ed.2d 450 (1992) (emphasis added).
Succinctly stated by another court, the “[forcible
eviction of tenants ... is by its very nature a
meaningful interference with their possessory
interests.” Thomas v. Cohen, 304 F.3d 563, 573 (6th
Cir. 2002).
But Dix’s argument runs into a couple of problems.
The first is that the existence of a landlord-tenant
relationship is a legal conclusion that we can reject at
the motion to dismiss stage. See Iqbal, 556 U.S. at 678,
129 S.Ct. 1937 (“[T]he tenet that a court must accept
as true all of the allegations contained in a complaint
is inapplicable to legal conclusions.”); Grange Mut.
Cas. Co. v. Slaughter, 958 F.3d 1050, 1055 (11th Cir.
2020) (holding that an affirmation that “an
enforceable lease existed” is “only a legal conclusion”);
In re United Cigar Stores Co. of Am., 89 F.2d 3, 5 (2d
Cir. 1937) (“[T]he facts do not justify the legal
conclusion that ... the relations of the parties were
those of landlord and tenant.”). So Dix's naked
allegation that he “enjoyed the legal status and
interest of a full-fledged tenant ... is a self-generated
legal conclusion to which this Court owes no
deference.” Snyder v. Daugherty, 899 F. Supp. 2d 391,
407 (W.D. Pa. 2012).
The second problem for Dix is that the rest of his
allegations actively undermine his conclusory
assertion that he was a tenant and therefore had a

9a

possessory right to Miller’s home protected under the
Fourth Amendment. Jacobsen, 466 U.S. at 113, 104
S.Ct. 1652.
Under Illinois law, there are leases and there are
licenses. A lease creates in the tenant a legal “interest
... in the premises” and “right to possession.” Jones v.
Kilfether, 12 Ill.App.2d 390, 139 N.E.2d 801, 803
(1956). “[T]he essential elements of a lease include: (1)
the extent and bounds of the property; (2) the term of
the lease; (3) the amount of rent; and (4) the time and
manner of payment. If any of these elements are
missing, a lease has not been created....” Millennium
Park Joint Venture, LLC v. Houlihan, 241111.2d 281,
349 Ill.Dec. 898, 948 N.E.2d 1, 19 (2010) (citing
Lannon v. Lamps, 53 Ill. App.3d 145, 10 Ill.Dec. 710,
368 N.E.2d 196, 199 (1977)). The ultimate hallmark of
a lease is the tenant’s “exclusive possession of the
premises against all the world, including the owner.”
Id,., 349 Ill.Dec. 898, 948 N.E.2d at 18 (quoting 53
C.J.S. Licenses § 133 (2005)).
A license, on the other hand, “merely confers a
privilege to occupy the premises under the owner.” Id.
(quoting 53 C.J.S. Licenses § 133 (2005)). Unlike a
lease, a license is “ordinarily revocable at the will of
the grantor,” id., 349 Ill.Dec. 898, 948 N.E.2d at 19
(citing Jackson Park Yacht Club v. III. Dep't of Local
Gov't Affairs, 93 Ill.App.3d 542, 49 Ill.Dec. 212, 417
N.E.2d 1039, 1043 (1981)), and “is not an interest in
land,” Martin v. See, 232 Ill.App.3d 968, 174 Ill.Dec.
124, 598 N.E.2d 321, 330 (1992) (citing Keck v. Scharf,
80 Ill.App.3d 832, 36 Ill.Dec. 83, 400 N.E.2d 503, 505
(1980)); see also Robinson v. Robinson, 100 Ill.App.3d
437, 57 Ill.Dec. 532, 429 N.E.2d 183, 189 (1981) (“[A]
possessory interest ... precludes application of a
license theory.”); Application of Rosewell, 69

10a
Ill.App.3d 996, 26 Ill.Dec. 36, 387 N.E.2d 866, 870
(1979) (a license does not “transfer!] a possessory
interest”). Moreover, a license “cannot ripen into a
prescriptive right, regardless of the time such
permissive use is enjoyed.” Keck, 36 Ill. Dec. 83, 400
N.E.2d at 505. Licensees can include anyone from a
casual social guest, Pashinian u. Haritonoff, 81 Ill.2d
377, 43 Ill.Dec. 21, 410 N.E.2d 21, 21 (1980), to a
teenager living with her parents, Meyn v. Seidel, No.
2-09-1293, 2011 WL 10108515, at *5 (Ill. App. Mar.
22, 2011), to a homeowner's spouse, Jones, 139 N.E.2d
at 804.
Turning to Dix’s amended complaint, we find none
of the characteristics of a lease or tenancy under
Illinois law. Dix alleges in excruciating detail how he
had virtually no possession or control over any part of
the home—he had no ability to prevent Miller from
going through his things, opening his mail, mingling
her property with his, or storing her personal items in
every corner of the house (“with the exception of one
drawer in a small nightstand”). He kept his own stuff
in “banker boxes, plastic tubs and overnight bags” and
had so little privacy in the home that he resorted to
locking his possessions in his truck. And he never
mentions the word “rent.” Only one reasonable
inference can be drawn from these allegations: that
Miller maintained complete possession and control
over her home but granted Dix a revocable license to
stay there.3

3 Compare Dix’s allegations to Gustin v. Barney, 250 Ill.
App. 209, 213 (1928), in which the court found that an
agreement was a lease where “[i]t provide[d] for the
payment of a certain fixed rent at definite periods. The use
granted was for a definite term with privilege of renewal.

11a

What's more, as Dix's amended complaint makes
abundantly clear, Miller revoked Dix’s license. “A
verbal license, such as the one in the present case,
may be revoked by express notice, by acts which are
entirely inconsistent with enjoyment of the use, or by
appropriating the land in question to any use contrary
to its enjoyment by the licensee.” Keck, 36 Ill. Dec. 83,
400 N.E.2d at 506. Miller demanded that Dix leave—
about as clear a revocation as one could expect.4
And when a license is revoked, the licensee
becomes a trespasser. See JCRE Holdings, LLC v.
GLK Land Tr., 434 Ill.Dec. 454, 136 N.E.3d 202, 205
(Ill. App. 2019) (“[U]pon termination of a license, the
licensee’s failure to remove its property from the
licensor’s land constitutes a trespass.”); cf. People v.
Brown, 150 Ill.App.3d 535, 103 Ill.Dec. 809, 501
N.E.2d 1347 (1986) (affirming trespass conviction of
live-in boyfriend who entered home after his license
was revoked). “[A] trespasser’s wrongful presence
forestalls a Fourth Amendment challenge.” United
States v. Sawyer, 929 F.3d 497, 500 (7th Cir. 2019)
(citing United States v. Battle, 637 F.3d 44, 49 (1st Cir.
2011) (defendant who overstayed his visit became a
trespasser with no “legally sufficient interest in the
apartment to mount a Fourth Amendment
challenge”); United States v. Struckman, 603 F.3d
731, 747 (9th Cir. 2010) (“[H]ad Struckman been an
It was exclusive as to that use and did not merely confer a
privilege under the owner.”
4 The amicus suggests that if Dix had a license, it may have
been irrevocable. This argument has been underdeveloped,
so we will not consider it—and it's probably meritless,
anyway. See Keck, 36 Ill.Dec. 83, 400 N.E.2d at 506
(explaining the narrow circumstances under which a
license becomes irrevocable).

12a
actual trespasser, he would not be able to claim the
protections of the Fourth Amendment.”); United
States v. Hunyady, 409 F.3d 297, 303 (6th Cir. 2005)).5
In short, by the time Officers Sommer and McKay
arrived, Dix had no right or privilege to be in Miller's
home whatsoever. He therefore could not have had a
“possessory interest” in it. “A seizure of property
occurs when there is ‘some meaningful interference
with an individual's possessory interests in that
property,’ and here there was none.” United States v.
Jones, 565 U.S. 400, 419, 132 S.Ct. 945, 181 L.Ed.2d
911 (2012) (Alito, J., concurring) (quoting Jacobsen,
466 U.S. at 113, 104 S.Ct. 1652). So Dix does not
sufficiently allege a seizure within the meaning of the
Fourth Amendment.6

5 These cases concerned searches, not seizures, but their
conclusions carry over to this case. Just as a trespasser has
no reasonable expectation of privacy in the property, a
trespasser also lacks a possessory interest in the property.
The very definition of “trespass,” after all, is the
interference of another's possessory interest. See Skinner
v. Mahomet Seymour Sch. Dist. No. 3, 90 IH.App.3d 655, 46
Ill.Dec. 67, 413 N.E.2d 507, 510 (1980) (“[TJrespass
requires a wrongful interference with the actual possessory
interest in property.”).
6 We recognize that, in some circumstances, a houseguest
(undoubtedly a licensee) may have a reasonable
expectation of privacy in his host’s home “rooted in
'understandings that are recognized and permitted by
society.’” Minnesota u. Olson, 495 U.S. 91, 100, 110 S.Ct.
1684, 109 L.Ed.2d 85 (1990) (quoting Rakas v. Illinois, 439
U.S. 128, 143 n. 12, 99 S.Ct. 421, 58 L.Ed.2d 387 (1978)).
But this is a seizure case, not a search case, so “the critical
question relates to any possessory interest in the seized
object, not to privacy or liberty interests.” Burgard, 675

13a
B. Dix Did Not Allege that Any Seizure Was
Unreasonable.
Even if Dix alleged that there was a Fourth
Amendment “seizure,” to “state a constitutional
violation,” he must also allege that “the seizure ... was
‘unreasonable.’” White v. City of Markham, 310 F.3d
989, 993 (7th Cir. 2002). Case law compels our next
conclusion: that even if a seizure occurred here, it was
reasonable.
In White, a police officer was called to a home in
response to an apparent domestic dispute. Id. at 991.
When he arrived, heated words as well as objects were
flying between the nonresident homeowner, Witcher,
and her nephew, White, who lived in Witcher’s home.
Id. at 991-92. Witcher had ignited the dispute when
she told White that she wanted him out. Id. So the
officer “was forced to ask either Witcher, the admitted
nonresident homeowner, or White, her relative and
resident guest, to leave the premises.” Id. at 996. We
held that “White's allegations of a right to remain on
Witcher's property, in the face of her demand that he
leave, [were] tenuous at best,” and “[b]ased on this
F. 3d at 1033. Besides, this is not one of those circumstances
contemplated in Olson. A houseguest “is there with the
permission of his host, who is willing to share his house
and his privacy with his guest.” 495 U.S. at 99, 110 S.Ct.
1684. In that instance, “[i]t is unlikely that the guest will
be confined to a restricted area of the house[, and] hosts
will more likely than not respect the privacy interests of
their guests, who are entitled to a legitimate expectation of
privacy despite the fact that they have no legal interest in
the premises.” Id. But a trespasser is no houseguest, and
any reasonable person would recoil at the notion that a
trespasser has a protected privacy interest—let alone a
possessory interest—in another person's home.

14a

unique situation, it could not have been unreasonable
for [the officer] to request White, the family member
with the apparently inferior property interest in
remaining on the premises, to vacate the explosive
situation.” Id.
Dix contends that this case is nothing like White
because here, there was no domestic disturbance and,
as a tenant, he had more than a “tenuous” right to be
in the home. We have already rejected his claimed
tenancy, so his “right to remain on [Miller's] property,
in the face of her demand that he leave,” was truly
“tenuous at best.” Id.
We likewise reject Dix's conclusory allegation that
there was no domestic disturbance. Miller had to call
the police—not once, but twice—to remove a man from
her home whom she had previously let live there but
who now refused to leave. When Officers Sommer and
McKay arrived, Dix was upset enough with Miller and
her “lazy” accomplice for how they were removing his
property from the home to begin hurling epithets at
them in the officers’ presence. In the apt words of Dix’s
amended complaint, “the situation became deranged.”
His allegation that there was no domestic
disturbance, then, is not only an “unsupported
conclusion!] °f fact” but implausible on its face. Hickey
v. O'Bannon, 287 F.3d 656, 658 (7th Cir. 2002).
In some ways, this case is even clearer than White.
Unlike the defendant there—a “nonresident
homeowner” and family member of the plaintiff—the
defendant here was the resident homeowner who lived
under the same roof as the (unrelated) man she
wanted removed. It was entirely reasonable for the
officers to separate two quarreling cohabitants by
removing, at the homeowner’s request, the one with
the obviously inferior—indeed, non-existent—

15a

property interest. White, 310 F.3d at 996. This
comfortably qualifies as one of those instances in
which “police officers may, as part of their community
caretaking function, separate parties to a domestic
disturbance by ordering one party to leave the
premises,” and “the officers’ decision to order [Dix] to
leave the house was reasonable since he appeared to
have the inferior possessory interest in the property.”
Lunini v. Grayeb, 184 F. App’x 559, 562 (7th Cir. 2006)
(following White, 310 F.3d at 996). What, we wonder,
was the more reasonable thing for these officers to
have done? Leave the scene and let Miller and Dix
duke it out between themselves? No case supports
such an argument.7
In addition, the (apparently erroneous) legal
advice that Miller received from other officers the day
prior—that she needed a court order to evict Dix—
does not make the conduct of Officers Sommer and
McKay any less reasonable considering the
acrimonious circumstances alleged. To be sure, Dix
does allege that Officers Sommer and McKay knew of
that previous conversation. But an officer’s “decision
[i]s not unreasonable even if it [i]s shown at a later
time that the officer reached an incorrect conclusion.”
Id. Even if Officers Sommer and McKay were
“incorrect” in their decision to remove Dix “when all of
the facts were clear, ... a police officer cannot be
7 It’s worth noting that Dix also alleges, albeit in a later
portion of his forty-four-page amended complaint, that
Miller threatened to kill him and that he reasonably feared
for his safety. This allegation only sheds more light on their
apparently caustic relationship and makes it even easier
for us to conclude that the relevant portions of Dix's
amended complaint paint the picture of a domestic
disturbance.

16a

expected to make that determination when [two
cohabitants] are shouting at each other. Nor was it
unreasonable to use the threat of arrest to accomplish
this goal.” White, 310 F.3d at 996. To the contrary, it
was well within “the scope of [the officers’] community
caretaking function” given the fracas unfolding
around them. Lunini, 184 F. App'x at 562.
We conclude that if there were a seizure, it was
reasonable.
C. Dix Did Not Allege a Conspiracy Under 42
U.S.C. § 1983.
The above discussion compels us to reject Dix's
third argument that he adequately alleged a
conspiracy between the officers and Miller to deprive
him of his Fourth Amendment rights.
“To establish Section 1983 liability through a
conspiracy theory, a plaintiff must demonstrate that:
(1) a state official and private individual(s) reached an
understanding to deprive the plaintiff of his
constitutional rights, and (2) those individual(s) were
willful participants in joint activity with the State or
its agents.” Brokaw v. Mercer Cnty., 235 F.3d 1000,
1016 (7th Cir. 2000) (quoting Fries v. Helsper, 146
F.3d 452, 457 (7th Cir. 1998)). Moreover, “a plaintiff
must allege and prove both a conspiracy and an actual
deprivation of rights; mere proof of a conspiracy is
insufficient to establish a section 1983 claim.”
Hampton v. Hanrahan, 600 F.2d 600, 622 (7th Cir.
1979), cert, granted in part, judgment rev'd in part on
other grounds, 446 U.S. 754, 100 S.Ct. 1987, 64
L.Ed.2d 670 (1980).
As we have seen, Dix did not allege an actual
deprivation of rights because there was no Fourth
Amendment seizure. And Dix “cannot establish that

17a

defendants conspired to violate his Fourth
Amendment right because, even if the officers ‘seized’
[Dix’s property] when they ordered him to leave
[Miller’s home], they did so lawfully. ‘A person may
not be prosecuted for conspiring to commit an act that
he may perform with impunity.’” Lunini, 184 F. App'x
at 563 (quoting House v. Belford, 956 F.2d 711, 720
(7th Cir. 1992)).
D. The Officers Are Entitled to Qualified
Immunity.
And so we come to the final issue of qualified
immunity. “Pubhe officials are immune from suit
under 42 U.S.C. § 1983 unless they have ‘violated a
statutory or constitutional right that was clearly
established at the time of the challenged conduct.’”
City & Cnty. of San Francisco v. Sheehan, 575 U.S.
600, 135 S. Ct. 1765, 1774, 191 L.Ed.2d 856 (2015)
(quoting Plumhoff v. Rickard, 572 U.S. 765, 778, 134
S.Ct. 2012, 188 L.Ed.2d 1056 (2014)). “An officer
‘cannot be said to have violated a clearly established
right unless the right's contours were sufficiently
definite that any reasonable official in his shoes would
have understood that he was violating it,’ meaning
that ‘existing precedent placed the statutory or
constitutional question beyond debate.’” Id.
(alterations and citations omitted) (first quoting
Plumhoff, 572 U.S. at 778, 134 S.Ct. 2012; then
quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741, 131
S.Ct. 2074, 179 L.Ed.2d 1149 (2011)). “Put simply,
qualified immunity protects ‘all but the plainly
incompetent or those who knowingly violate the law.’”
Allin v. City of Springfield, 845 F.3d 858, 862 (7th Cir.
2017) (quoting Mullenix v. Luna, 577 U.S. 7, 12, 136
S.Ct. 305, 193 L.Ed.2d 255 (2015)).

18a

Though it matters little now, even if the officers’
actions were unlawful, they would be entitled to
qualified immunity. Our most analogous case makes
that clear enough. White, 310 F.3d at 997 (“[BJecause
the eviction was not unreasonable under these
circumstances, the district court correctly granted
[the officers] qualified immunity.”); see also Spiegel v.
City of Chicago, 106 F.3d 209, 210 (7th Cir. 1997)
(holding that a former resident's “right not to have the
police prevent him from entering an apartment that
was in the possession of the landlord was not clearly
established at the time the police blocked his attempt
to enter”).
One other case, Higgins v. Penobscot Cnty.
Sheriff's Dep't, is worth discussion. 446 F.3d 11 (1st
Cir. 2006). The plaintiff there, Higgins, awoke one
morning, donned his robe, and poured himself a cup of
coffee. Id. at 12. Peaceful though it sounds, he
happened to be in an apartment that was the subject
of a hotly contested familial squabble—so when
Higgins's sister came upon Higgins and his coffee, she
called the police. Id. By the time the officer arrived,
the whole family had converged in a “screaming
contest.” Id. Higgins insisted to the officer that he had
a right to reside there. Id. The officer didn't buy it,
issued Higgins a trespass citation, gave him a few
minutes to gather his things, and threatened him with
arrest “if he did not leave or returned to the property.”
Id. at 13.
Higgins sued the officer, but the court held that the
officer was entitled to qualified immunity. Id. at 1415. Among the facts supporting this conclusion were
that the officer “encountered a volatile and potentially
dangerous situation—described by Higgins himself as
a ‘screaming contest’ —when he arrived”; “[t]he

19a

subject of the dispute was a man who ... claimed a
right to occupy a building,” but the man “provided no
written lease or other documentation to support his
claimed occupancy right[ and] only made a conclusory
verbal claim of entitlement”; and “[o]pposing this man
were several members of his own family, all of whom
disputed his claimed entitlement.” Id. at 14.
Add that case to our own, and it's clear that, to the
extent existing case law put the officers on notice of
anything, it was that they were not violating the
Constitution by removing a quarreling cohabitant at
the request of the homeowner in these circumstances.
The cases that Dix relies on, on the other hand, are
simply too different in too many ways to have clearly
established that these officers’ conduct, in these
circumstances, was unlawful. Dix primarily relies on
Soldal, 506 U.S. 56, 113 S.Ct. 538. But there, the
evicted persons were not mere licensees (let alone
trespassers) and the Court did not determine whether
the seizure was reasonable under the circumstances.
See Hurern u. Tavares, .793 F.3d 742, 747 (7th Cir.
2015) (“In Soldal, the Supreme Court did not reach
the question whether the removal of the mobile home
was unreasonable.”). Perhaps most important, the
officers “assisted in a forcible eviction that was
patently unlawful.” Cofield v. Randolph Cnty.
Comm'n, 90 F.3d 468, 471 (11th Cir. 1996) (emphasis
added) (citing Soldal, 506 U.S. at 56-60, 113 S.Ct.
538).
And in Dix’s other case, Thomas, the plaintiff (a
tenant) had a clear possessory interest in the property
and did not live with the homeowner, there were no
exigent circumstances warranting removal, and the
court found that the officers were entitled to qualified
immunity. 304 F.3d at 566, 567; id. at 583 (Gilman.,

20a

J. concurring) (“[A] reasonable person in the officers'
position would not have known that the eviction in
question violated the plaintiffs' Fourth Amendment
right [s].”).
Neither Soldal nor Thomas clearly established
that the officers’ conduct here violated Dix’s
constitutional rights. Dix’s “argument essentially
invites us to hold, as a matter of constitutional law,
that a police officer, summoned to mediate a volatile
dispute involving an alleged trespasser, is obliged to
leave the situation unresolved simply because the
trespasser represents himself to be entitled to be
there. To state the proposition is to expose its
foolishness.” Higgins, 446 F.3d at 15.
* **

For all the above reasons, we conclude that Dix’s
Fourth Amendment claim against Miller and Officers
Sommer and McKay was properly dismissed. We do
not need to address Dix's many other claims against
the many other defendants because they are entirely
without merit.8
8 If any of Dix’s other claims are worth mentioning, it’s his
claim that Officer Sommer and the Village of Lisle
infringed his First Amendment right to free speech when
Officer Sommer threatened to arrest Dix if he did not stop
cursing at Miller and her associate. Dix relies primarily on
Purtell v. Mason, 527 F.3d 615 (7th Cir. 2008), which
rejected application of the fighting-words doctrine where
the plaintiff erected mock tombstones in his yard that
insulted the neighbors. But that case is easily
distinguishable, as the protected speech there occurred on
the plaintiffs own property, whereas Dix cast his insults
from Miller’s property, where he was not entitled to be. So
we agree with the district court's conclusion that

21a

But there is another matter that we must address.
Gerald Dix is no stranger to this court or any other
level of the federal judiciary. He has a twenty-year
history of filing patently frivolous lawsuits and
appeals—and being admonished for doing so. E.g., Dix
v. Unknown TSA Agent No. 1, 588 F. App'x 499, 499
(7th Cir. 2015) (“Because Dix has filed two frivolous
appeals within the last few months, we warn him that
further frivolous appeals may result in sanctions.”),
cert, denied, 576 U.S. 1057, 135 S.Ct. 2902, 192
L.Ed.2d 928 (2015); Dix v. Illinois, 202 F.3d 272, 1999
WL 955738 at *2 (7th Cir. 1999) (unpublished
disposition) (noting that Dix’s case had “absolutely no
foundation”); Dix v. United States, No. 09-CV-6349,
2010 WL 2607262, *14 (N.D. Ill. June 24, 2010)
(warning Dix of “potential sanctions”); see also Dix u.
Clancy, 577 U.S. 817, 136 S. Ct. 45, 193 L.Ed.2d 27
(2015) (denying petition for writ of certiorari),
rehearing denied, 577 U.S. 817, 136 S. Ct. 45, 193
L.Ed.2d 27 (2015).
Apparently, Dix long ago decided that his every
perceived grievance, no matter how “paranoid and
delusional,” should be aired in the federal courts.
Unknown TSA Agent No. 1, 588 F. App’x at 499. In
this case, Dix got lucky enough to include one claim
“Sommer's warning to Plaintiff that he would be arrested
should he continue his course of conduct did not violate
Plaintiff's First Amendment right to free speech, because
Plaintiff had no right to hurl abusive insults at Miller and
Doe #2 during an ongoing domestic dispute at Miller's
home.” See Frisby v. Schultz, 487 U.S. 474, 485, 108 S.Ct.
2495, 101 L.Ed.2d 420 (1988) (“[W]e have repeatedly held
that individuals are not required to welcome unwanted
speech into their own homes and that the government may
protect this freedom.”).

22a

that was not completely absurd; throw nineteen
claims at the wall, and one of them just might stick.
But the common thread running through all of Dix’s
litigations is that they are stunningly devoid of merit.
Not only that, but his court filings— in this case and
others—are replete with intemperate, inflammatory,
and downright offensive language.
Notably, the day after Dix filed this appeal, the
Northern District of Illinois explained in an executive
committee order that “[s]ince July 28, 2008, pro se
litigant Gerald Dix has filed six cases in this court.
The cases have all been dismissed for reasons such as
remand denied, failure to state a federal claim, and
fifing a frivolous complaint.” Executive Committee
Order at 1, In re: Gerald Dix, l:18-cv-06252 (N.D. Ill.
Sept. 13, 2018), ECF No. 1. Worse yet, “Dix caused a
disturbance in a courtroom of the Dirksen U.S.
Courthouse ..., becoming verbally and physically
combative and disrupting the judge's court.” Id.
Unsurprisingly, “Dix’s inappropriate conduct has
raised concerns among the Court, the Clerk’s Office,
and the United States Marshals Service.” Id. The
district court determined that “reasonable and
necessary restraints must be imposed upon Mr. Dix's
ability to file new civil cases in this district pro se.” Id.
The court enjoined Dix’s ability to file any new civil
cases in that district unless he follows procedures to
obtain leave of court and entered several other
restrictions on Dix's capacity to abuse the legal
process. Id. at 1-3.
Rightly so, but we find we must go further.
Without a doubt, Dix “has abused the judicial process
with frivolous litigation. The result has been the
harassment of opposing parties, insult to judicial
officers, and waste of limited and valuable judicial

23a

resources.... When dealing with a frivolous litigator
who, despite due warning or the imposition of
sanctions, continues to waste judicial resources, we
impose a filing bar preventing the litigant from filing
in this court or any federal court in this circuit.”
McCready v. eBay, Inc., 453 F.3d 882, 892 (7th Cir.
2006).
Dix has had ample warning. We therefore “direct
the clerks of all federal courts in the circuit to return
unfiled any papers that [Dix] attempts to file” for two
years from the date of this opinion. Support Sys. Int'l,
Inc. v. Mack, 45 F.3d 185, 186 (7th Cir. 1995). “We
make an exception for any criminal case in which
[Dix] is a defendant and for any application for habeas
corpus that he may wish to file. That is, we will not
impede him from making any filings necessary to
protect him from imprisonment or other confinement,
but we will not let him file any paper in any other suit
in the federal courts of this circuit....” Id.
We spare Dix from financial penalties today, but
we once again warn him that pro se litigants are not
excused from the monetary sanctions available under
Federal Rule of Civil Procedure 11 and Federal Rule
of Appellate Procedure 38. See Vukadinovich v.
McCarthy, 901 F.2d 1439, 1445 (7th Cir. 1990); Reis v.
Morrison, 807 F.2d 112, 113 (7th Cir. 1986). We urge
our constituent courts to take notice that they may,
and should, greet any attempt by Dix to file papers in
contravention of this opinion with financial
sanctions.9
9 As the district court mentioned, it is also evident from
Dix’s amended complaint that he routinely engages in the
unauthorized practice of law (because he feels “it is
common for licensed attorneys to commit fraud on the

24a

One last remark. We sometimes enlist amici curiae
in difficult and thankless tasks. We extend our utmost
gratitude to the amicus recruited here for assuming
this burden, properly distilling the facts in this case,
and presenting a fine legal argument worthy of being
considered by this court.
III. CONCLUSION
The judgment of the district court is AFFIRMED.
The clerks of the federal courts of this circuit are
hereby ORDERED to return unfiled any papers
submitted to these courts either directly or indirectly
(as by mail to individual judges) by or on behalf of
Gerald Dix, with the exceptions noted in the opinion.

courts”). For example, he alleges that he wrote “a Petition
for Rehearing to the Second District of the Illinois
Appellate Court on behalf of his brother” (though it fell
short of “addressing] every legal issue to protect that
plaintiff’); he has “often been called upon to commence and
maintain legal action on behalf of ... others against
malefactors”; and he even repeatedly refers to his “billable
hours” for performing such “consulting”— i.e., legal—work.
We, too, note this for the benefit of state authorities. See
705 Ill. Comp. Stat. 205/1.

25a
)

APPENDIX B

Mnttetr States Court of &ppeate
For the Seventh Circuit
Chicago, Illinois
November 17, 2020
Before
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 18-2970
Gerald Dix,
Plaintiff-Appellant,

Appeal from the United
States District Court for
the Northern District of
Illinois, Eastern Division
No. 17-cv-6561

v.
Edelman Financial
Services, LLO et al.,
Defendants-Appellees.

Charles R. Norgle,
Judge

ORDER
On consideration of the petition for rehearing and
rehearing en banc filed in the above entitled cause by
pro se appellant, Gerald Dix on November 2, 2020, no
judge in active service has requested a vote on the
petition for rehearing en banc and all members of the
original panel have voted to deny rehearing. It is,

26a

therefore, ORDERED that rehearing and rehearing
en banc are DENIED

27a

APPENDIX C

UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
ORDER
September 15, 2020
By the Court:
GERALD DIX,
Plaintiff - Appellant
No. 18-2970

v.

EDELMAN FINANCIAL
SERVICES, LLC, et al„
Defendants - Appellees
Originating Case Information:
District Court No: l:17-cv-06561
Northern District of Illinois, Eastern Division
District Judge Charles R. Norgle____________
Upon consideration of the MOTION FOR EQUAL
TIME IN ORAL ARGUMENTS AND TO
PREVENT INTERFERENCE WITH
APPELLANT’S STATE COURT ACTIONS, filed
on September 14, 2020, by the pro se appellant,
IT IS ORDERED that the motion is DENIED to the
extent pro se appellant Gerald Dix seeks leave to
participate in oral argument.
IT IS FURTHER ORDERED that to the extent the
motion seeks further relief related to appellant’s

28a

state law claims, the motion will be TAKEN WITH
THE CASE for resolution by the assigned merits
panel. The clerk shall distribute a copy of the motion
and this order to the panel.

.1

29a

APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS
EASTERN DIVISION
GERALD DIX,
Plaintiff,

)
)

) No. 17 CV 6561
v.

)

EDELMAN FINANCIAL
SERVICES, LLC et al.,
Defendants.

) Hon. Charles
Norgle
)
)

R.

)
)
)

OPINION AND ORDER
Plaintiff Gerald Dix ("Plaintiff') brings this action
against Defendants Edelman Financial Services, LLC
("Edelman Financial"), Theresa Miller ("Miller"), the
Village of Lisle, Lisle Police Officer Rob Sommer
("Sommer"). Village of Lisle Police Officer Sean
McKay ("McKay"), Village of Lisle Police Officer Dean
Anders ("Anders"), Village of Lisle Police Officer John
Doe #3 ("Doe #3"), MJ Suburban, Inc., d/b/a RE/MAX
Suburban ("RE/MAX"), the City of Wheaton, City of
Wheaton Police Officer Vetaliy Lord ("Lord"), Cheryl
L Shurtz ("Shurtz"). Jane Doe #1 ("Doe #1"), Jane Doe
#2 ("Doe #2"), and Fire Towing, Inc. ("Fire Towing")
(collectively, "Defendants"). Plaintiffs First Amended

30a

Complaint ("FAC") sets forth nineteen separate
claims, including six federal causes of action under 42
U.S.C. § 1983 and various state law claims. In its
February 28, 2018 Order, the Court dismissed Counts
V, VI, VIII, X, XVII, and XVIII of Plaintiffs FAC with
prejudice, to the extent that these Counts set forth
claims against Edelman Financial. Doe #1, and Doe
#2. Now, all remaining Defendants1 have filed
motions to dismiss pursuant to Federal Rule of Civil
Procedure 12(b)(6). For the following reasons,
Defendants motions to dismiss are granted. Plaintiffs
§ 1983 claims (Counts I, IV, XI. XIII, XIV, and XVI)
are dismissed with prejudice and the Court
relinquishes jurisdiction over Plaintiffs remaining
state law claims.

I. BACKGROUND
Plaintiffs FAC revolves around what he views as a
"wrongful eviction" from Miller's home in Lisle,
Illinois. Plaintiff and Miller were at some point
engaged in a romantic relationship. As part of their
relationship, Miller permitted Plaintiff to live in her
home in Lisle. However, Plaintiff claims that their
relationship turned strictly "platonic" in 2013 as the
result of a "botched elective cosmetic surgical
procedure" that left Miller in poor health. FAC 27,
Plaintiff also claims that Miller was his landlord, but
he provides no allegations regarding a written lease
agreement or rent payments. IcL If 21. Rather, he
vaguely mentions that he shared living expenses with
Miller and that he performed some household chores.

1 Fire Towing did not file a motion to dismiss; however, Fire
Towing was never served in accordance with Fed. R. Civ.
P. 4.

31a
Plaintiff alleges Miller began asking him to make
greater financial contributions after she lost her job as
a pharmacist in May of 2017. According to Plaintiff,
not only did Miller harass him for money, but she also
repeatedly attempted to steal his paychecks and made
several unauthorized purchases on his credit card.
Plaintiff claims that Miller's actions were the result of
advice she received from her financial advisor, Doe #1,
an unknown agent of Edelman Financial. Doe #1
allegedly refused to release any of Miller's funds, and
instead instructed her to "steal financial funds from
the Plaintiff' and "convince the Plaintiff that he
should obtain full-time employment" in order to
replace her lost income. Id. Iff 36, 45.
By way of background, Plaintiff states that at all
time relevant most of his income was derived from his
work as a software engineer. However, in addition, he
brazenly admits that he has routinely engaged in the
unauthorized practice of law.2 Id.
119, 120 n. 4,
121. Specifically, he states that he lost "billable hours"
as the result of his "wrongful eviction" because he was
2 The Illinois Attorney Act provides that: "[n]o person shall
be permitted to practice as an attorney or counselor at law
within this State without having previously obtained a
license for that purpose from the Supreme Court of this
State."; and "[n]o person shall receive any compensation
directly or indirectly for any legal services other than a
regularly licensed attorney, nor may an unlicensed person
advertise or hold himself or herself out to provide legal
services." 705 ILCS 205/1. "In Illinois, the practice of law
includes, at a minimum, representation provided in court
proceedings along with any services rendered incident
thereto, even if rendered out of court." U.S. v. Johnson. 327
F.3d 554, 561 (7th Cir. 2003) (citing People v. Peters. 10
Ill.2d 577 (1957)).

32a

unable to complete a rehearing petition "on behalf of
his brother" that was to be filed by August 30, 2017.
in the Illinois Appellate Court. Second District.3 Id. TfH
119-121 (emphasis added). According to Plaintiff,
"because it is common for licensed attorneys to commit
fraud on the courts. Pie] has too often been called upon
to commence and maintain legal action on behalf of
himself and others against malefactors." Id. 120 n. 4.
In August of 2017, Miller decided to sell her home
in Lisle and hired Shurtz, as an agent of RE/MAX, to
facilitate the sale. Shurtz allegedly offered to sell
Miller's home on the condition that Miller agreed to
"evict" Plaintiff and have the house staged for listing
within a week. Miller allegedly agreed to "evict"
Plaintiff, but only after requiring him to do the bulk
of the packing and moving necessary to stage Miller's
home. Over the course of five pages in the FAC,
Plaintiff describes in excruciating detail how Miller's
home was allegedly in a state of disrepair and
excessively cluttered. Plaintiff makes confusing
references to various alleged building code violations
and blames the cluttered state of the home on Miller's
alleged "compulsive buying disorder." FAC 69.
Plaintiff claims that on August 22, 2017, he was
somehow required to help stage Miller's home along
with Miller's friend Paula and Doe #2, another
unknown agent of Edelman Financial. Plaintiff
alleges that he eventually became fed up with the
"ineptness" of Paula and Doe #2 and refused to help
any further with staging Miller's home. Before he left,
3 Plaintiff has provided case number for his brother's
lawsuit in which he admittedly engaged in the
unauthorized practice of law— "15 L 495 in Kane County."
Pl.'s Resp. to Def. Miller's Mot. to Dismiss at 5 n. 2.

33a

however, Plaintiff claims that he told Miller and Doe
#2 to leave his personal property undisturbed while
they continued the staging process.
Plaintiff alleges that he returned home from work
on August 23, 2017, to find his personal property
packed in boxes and comingled with Miller's property.
Plaintiff claims that he had no intention of moving out
of Miller's home—despite knowing that she was
planning on selling her home—so he started to unpack
his property. According to Plaintiff Miller grabbed his
arm to stop him from unpacking and a heated dispute
between Plaintiff and Miller followed. During the
dispute, Plaintiff informed Miller that "he wasn't
going to help her stage the Lisle home because she and
her helpers disturbed [his] possessions in defiance of
[his] specific instructions." FAC f 103. Miller
allegedly responded by informing Plaintiff of her
secret agreement with Shurtz "to have Plaintiff help
stage the Lisle home and then evict Plaintiff the
upcoming Sunday night, August 27, 2017." Id. U 104.
Plaintiff alleges that following the dispute, Miller
called the Lisle police to "evict" Plaintiff because he
refused to help stage her home. Shortly thereafter,
four or five unknown Lisle police officers arrived at
Miller's home in response to her call. The situation
was seemingly resolved, as the officers eventually left
and Plaintiff reentered Miller's home.
Plaintiff alleges that on August 24, 2017, he
attempted to move several more boxes of personal
property into Miller's home, which precipitated
another dispute with Miller. Miller again called the
Lisle Police and three officers responded to her call:
Sargent Dempsy, Officer Sommer, and Officer McKay.
Plaintiff claims that upon their arrival, Sommer and

34a

McKay spoke with Miller and decided to "evict"
Plaintiff.

„

Sommer and McKay allegedly informed Plaintiff
that he was not permitted to enter Miller's home and
instructed Miller and Doe #2 to remove Plaintiffs
personal property from the home and place it on the
driveway. Plaintiff alleges that Sommer prevented
him from reentering Miller's home while Miller and
Doe #2 began moving his personal property to the
driveway. Plaintiff claims he became upset with the
manner in which Miller and Doe #2 were moving his
possessions and he expressed his frustration by
calling Doe #2 "stupid." FAC f 128. Sommer allegedly
instructed Plaintiff that "he could not call Doe #2
stupid," and that "if he called anyone else stupid, a
dingbat, ding-a-ling, idiot or 'stupid bitch' that Pie]
would arrest Plaintiff for disorderly conduct." Id. 129130.
While Sommer and McKay were still at Miller's
home, Plaintiff left to rent a moving truck to carry
away his personal property. Plaintiff claims that
Sommer and McKay agreed to protect Plaintiffs
personal property while he rented the moving truck.
Plaintiff alleges that despite their promise to "guard"
his belongings, some of the boxes containing his
personal property were missing when he returned
with the moving truck. Plaintiff further alleges that
he was eventually allowed to reenter Miller's home to
gather his personal property, but Sommer and McKay
prevented him from entering the dining room, second
floor, and third floor, where he believed some of his
property had been moved by Miller and Doe #2.
Plaintiff also claims that Sommer forced him to turn
over his keys to Miller's home under protest and that
Sommer and McKay informed him that he would be

35a

arrested if he returned to Miller's home for any reason
besides retrieving his personal property or his vehicle,
which Plaintiff left parked in Miller's driveway.
Subsequent to what Plaintiff calls his "wrongful
eviction," he demanded that Miller and the Village of
Lisle ship him his personal property that he claims
was left behind at Miller's home. Plaintiff contends
that Miller and the Village of Lisle refused to ship him
his property and that he was prevented from
retrieving his vehicle that he left parked in Miller's
driveway. However, Plaintiff fails to plead how he was
prevented or who was responsible for stopping him
from removing his vehicle from Miller's driveway—
e.g. he does not indicate that his keys to his vehicle
were taken from him, or that he attempted to retrieve
his vehicle, but was stopped by a Lisle police officer.
Rather. Plaintiff admits earlier in his FAC that
Sommer and McKay informed him that he could
return to Miller's home to collect his personal property
and his vehicle. It is not disputed that Plaintiff never
removed his vehicle from Miller's driveway.
On September 6, 2017, nearly two weeks after
Plaintiff left Miller's home, he allegedly spoke with
Miller and informed her of his intent file the instant
lawsuit. Miller allegedly responded by stating "I am
going to kill you if you file that complaint." FAC 162.
Plaintiff claims that this comment caused him to fear
for his safety, but that the Lisle Police refused to
assist him in retrieving his personal property and his
vehicle. Plaintiff further claims that the Village of
Lisle initially agreed to protect his property that
remained at Miller's home. However, after he filed the
original complaint in this case, Miller and the Village
of Lisle allegedly retaliated against him by "donating"
his vehicle to Fire Towing. Plaintiff fails to address

(.

36a

that he allowed his vehicle to remain on Miller's
property for at least several weeks before it was
removed by Fire Towing.
Plaintiffs FAC continues with further allegations
pertaining to events that occurred after he filed his
complaint. Plaintiff claims that on or about August 25,
2017, he received a phone call from Officer Lord of the
Wheaton Police Department, wherein Lord falsely
accused him of threatening Shurtz for her
involvement in Plaintiffs alleged "wrongful eviction."
Plaintiff further claims that Lord threatened to
provide false testimony to a DuPage County Court for
the purpose of obtaining a warrant for Plaintiffs
arrest and that Lord and Shurtz conspired to
manufacture evidence against him in retaliation for
Plaintiff filing the instant lawsuit against the various
parties. However, Plaintiff does not allege that he was
ever arrested or prosecuted in connection with any
false testimony or evidence manufactured by Lord and
Shurtz.
Plaintiff alleges another conspiracy against him,
this time involving Miller and Doe #3, an unidentified
Lisle Pohce Officer. Plaintiff claims that Doe #3
informed Miller that the Village of Lisle was planning
on initiating legal action against her for her role in
instigating Plaintiff s "wrongful eviction." but that the
Village of Lisle would not pursue any legal action if
she filed a criminal complaint against Plaintiff.
Plaintiff further contends that Doe #3 successfully
coerced Miller into filing a criminal complaint against
him that contained false testimony—although, he
again does not allege that he was ever arrested or
prosecuted in connection with Miller's criminal
complaint. Plaintiff also claims that Miller informed
him that she would not pursue the criminal complaint

37a

against him which she had allegedly already filed—if
he voluntarily dismissed the instant lawsuit and gave
her all of his money. He did not give Miller all of his
money.
Plaintiff alleges yet a third conspiracy against him
after he filed his complaint. This conspiracy allegedly
involved Officer Anders of the Lisle Police
Department and Miller. Plaintiff claims he received a
phone call from Anders on September 28,2017, during
which Anders informed him that Miller had recently
contacted the Lisle Police Department to report that
Plaintiff had reentered her home without her
permission for the purpose of delivering a motion in
this case. Plaintiff claims that he told Anders he did
not enter Miller's home, but Anders allegedly did not
believe him and threatened that Ander's would:
provide false testimony in a DuPage County Court
that Plaintiff had entered Miller's home; obtain an
arrest warrant for Plaintiff; and convince the State's
Attorney's Office to prosecute Plaintiff for criminal
home invasion. Thus, like his allegations against
Lord. Plaintiff imputes to Anders the commission of
perjury. Plaintiff further claims that Anders' alleged
threats of arrest and prosecution were made for the
purpose of intimidating Plaintiff into dismissing the
instant lawsuit, and for the purpose of aiding and
abetting Miller's extortion of money from Plaintiff.
However, identical to his other conspiracy claims, he
does not allege that he was ever arrested, let alone
prosecuted, based on any false testimony or evidence
manufactured by Anders and Miller.
II. DISCUSSION
A. Standard of Review

38a

A motion under Rule 12(b)(6) tests the sufficiency
of the complaint under the plausibility standard. Bell
Atlantic Corporation v. Twomblv. 550 U.S. 544, 570
(2007), not the merits of the suit. Gibson v. City of
Chicago. 910 F.2d 1510, 1520 (7th Cir. 1990) (citation
omitted). "[A] plaintiffs claim need not be probable,
only plausible: 'a well-pleaded complaint may proceed
even if it strikes a savvy judge that actual proof of
those facts is improbable, and that a recovery is very
remote and unlikely."’ Indep. Trust Corn, v. Stewart
Info. Servs. Corn. 665 F.3d 930, 935 (7th Cir. 2012)
(quoting Twomblv. 550 U.S. at 556). "'A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.’ To rise above the 'speculative
level’ of plausibility, the complaint must make more
than '[t]hreadbare recitals of the elements of a cause
of action, supported by mere conclusory statements.’"
Oakland Police & Fire Ret. Svs. v. Maver Brown. LLP.
861 F.3d 644, 649 (7th Cir. 2017) (citing Ashcroft v.
Iqbal. 556 U.S. 662. 678 (2009)). In deciding a Rule
12(b)(6) motion, the Court accepts as true all wellpleaded facts in a plaintiffs complaint, and draws all
reasonable inferences in his favor. Burke v. 401 N.
Wabash Venture. LLC. 714 F.3d 501. 504 (7th Cir.
2013) (citations omitted). "[A] a plaintiff is not
required to plead facts in the complaint to anticipate
and defeat affirmative defenses. But when a plaintiffs
complaint nonetheless sets out all of the elements of
an affirmative defense, dismissal under Rule 12(b)(6)
is appropriate." Indep. Trust Corn.. 665 F.3d at 935.
B. Count I is Dismissed with Prejudice Because
Plaintiffs Allegations Show That Anders and

39a

McKay did Not Violate His Constitutional
Rights
Count 1 sets forth a § 1983 claim against Sommer,
McKay, Miller, and Shurtz, alleging that these
defendants
conspired
to
violate
Plaintiffs
constitutional rights by unlawfully evicting Plaintiff,
causing him to remove his property from Miller's
home, and stealing and destroying his property.
Plaintiff further alleges that defendants violated his
rights under the Fourth Amendment to be secure in
his person, papers, and effects against unreasonable
seizures; violated his rights under the Fourteenth
Amendment to substantive due process; and violated
his rights under the Fourteenth Amendment to
procedural due process.
Sommer, McKay, Miller, and Shurtz argue that
Count I must be dismissed because Sommer and
McKay are entitled to qualified immunity pursuant to
White v. City of Markham. 310 F.3d 989, 995 (7th Cir.
2002). While the Court does not reject this argument,
there is no need to fully consider the doctrine of
qualified immunity because Plaintiffs allegations
show that he suffered no constitutional violation.
"In order to state a claim under § 1983, a plaintiff
must sufficiently allege that (1) a person acting under
color of state law (2) deprived him of a right, privilege,
or immunity secured by the Constitution or laws of the
United States." London v. RBS Citizens. N.A.. 600
F.3d 742, 745-46 (7th Cir. 2010). "Any Fourth
Amendment inquiry necessarily begins with a
determination of whether a search or seizure actually
occurred." Carlson v. Bukovic. 621 F.3d 610, 618 (7th
Cir. 2010) (citing Scott v. Harris. 550 U.S. 372, 381
(2007). With respect to whether there has been a

40a

seizure of a person, the traditional approach is for the
Court to determine whether the person believed he
was "free to leave." Id- A seizure of property occurs
when "there is some meaningful interference with an
individual's possessory interests in that property."
United States v. Jacobsen. 466 U.S. 109, 113 (1984).
The Court's determination of whether a seizure has
occurred "is made on the basis of the 'totality of the
circumstances' surrounding the encounter." Carlson.
621 F.3d at 618 (quoting United States v. Jerez. 108
F.3d 684, 690 (7th Cir. 1997)); Florida v. Bostick. 501
U.S. 429, 437 (1991).
Here, Plaintiffs allegations reveal that: he was free
to leave Miller's property at any time; he did in fact
leave to rent a moving truck to transport his personal
property; Sommer and McKay directed Miller and Doe
#2 to turn over Plaintiffs personal property; he was
permitted to reenter Miller's home to gather his
personal property; and Sommer and McKay informed
him that he could return to Miller's home to gather
any property that was left behind. Accepting Plaintiffs
allegations as true, the Court concludes that there
was no seizure of Plaintiff or his property from
Miller's home within the meaning of the Fourth
Amendment. Rather, Plaintiff was instructed to leave
Miller's home, and ended up leaving voluntarily with
his personal property in a moving truck that he
rented. Moreover, in considering the totality of the
circumstances as alleged, Sommer and McKay
actually helped Plaintiff retrieve his personal
property from Miller's home.
Having concluded that no seizure occurred,
Plaintiffs claim that his Fourth Amendment rights
were violated hangs completely on his assertion that
he was "wrongfully evicted," in violation of the Illinois

41a

Forcible Entry and Detainer Act, 735 Ill. Comp. Stat.
5/9-101, et seq. However, without determining the
applicability of that state statute, it is well settled
that the "mere violation of a state statute does not
infringe the federal Constitution." Snowden v.
Hughes. 321 U.S. 1, 11 (1944); Lennon v. City of
Carmel. Indiana. 865 F.3d 503, 509 (7th Cir. 2017);
Lennon v. City of Carmel. Indiana. 865 F.3d 503. 509
(7th Cir. 2017). Moreover, the Seventh Circuit has
expressly held that an officer's failure to comply with
the Illinois Forcible Entry and Detainer Act "does not
matter" for the purposes of a claim under the Fourth
Amendment. Gordon v. Degelmann. 29 F.3d 295, 301
(7th Cir. 1994). Accordingly, Plaintiff has pled himself
out by alleging facts showing that his rights under the
Fourth Amendment were not violated. See Tamavo v.
Blagoievich, 526 F.3d 1074, 1086 (7th Cir. 2008) ("A
plaintiff pleads himself out of court when it would be
necessary to contradict the complaint in order to
prevail on the merits." (internal quotation marks
omitted)).
Plaintiffs substantive due process claim fails for
similar reasons. The Due Process Clause of the
Fourteenth Amendment provides: "[N]or shall any
State deprive any person of life, liberty, or property,
without due process of law." In Coniston Corp. v. Vill.
of Hoffman Estates, the court considered how a state
government's deprivation of property could amount to
a violation of substantive due process. 844 F.2d 461
(7th Cir. 1988). The court explained that there may be
a violation of substantive due process when a state
government deprives an owner of his property for a
private purpose. Id. at 467.
Here, Plaintiff pleads himself out again by alleging
that: Sommer and McKay directed Miller and Doe #2

42a

to move his personal property outside; he carried
away his personal property in a moving truck: and he
could return to gather any property that was left
behind. Based on these allegations, Plaintiff cannot
show that Sommer and McKay deprived him of his
property for a private purpose— which would be
taking his property and giving it to Miller and Doe #2.
Rather, as noted above, Plaintiffs allegations show
that Sommer and McKay actually helped him in
retaining his personal property. Moreover, Plaintiff
does not dispute that Miller wanted his personal
property removed from her home. Plaintiff is also
foreclosed from attempting to turn his "wrongful
eviction" claim into a substantive due process
violation. Coniston. 844 F.2d at 467 ("A violation of
state law is not a denial of due process of law.").
Next, the Court addresses Plaintiffs claim that he
has suffered a violation of his right to procedural due
process. The Seventh Circuit's decision in Soldal v.
Ctv. of Cook is instructive on this point. 942 F.2d 1073
(7th Cir. 1991). rev'd sub nom. Soldal v. Cook Ctv.. Ill..
506 U.S. 56. 113 S. Ct. 538. 121 L. Ed. 2d 450 (1992).
In Soldal. the plaintiffs claimed that the owner of a
mobile home park and its manager conspired with
Illinois deputy sheriffs to Seize and remove the
plaintiffs' mobile home in violation of their Fourth and
Fourteenth Amendment rights. Id. The court held
that "no interest protected by the Fourth Amendment
[was] involved" in the removal of the plaintiffs' mobile
home because there had been no invasion of the
plaintiffs privacy. Id- at 1077-80 (emphasis in
original). Further, the court stated that a plaintiff
claiming a deprivation of procedural due process in
connection with an eviction faces "a distinctly uphill
fight" because "the Supreme Court has held that the

43a

denial of procedural rights (here the rights that
Illinois law grants tenants in eviction proceedings) as
a result of the random and unauthorized acts of
subordinate public officers (the deputy sheriffs in this
case) is not actionable under section 1983 unless the
plaintiff lacks adequate judicial remedies under state
law." Id. at 1075-76 (citing Parratt v. Tavlor. 451 U.S.
527 (1981); Zinermon v. Burch, 494 U.S. 113 (1990);
Easter House v. Felder. 910 F.2d 1387, 1396-97 (7th
Cir.1990) (en banc)). The court further stated that
"Illinois law entitled the [plaintiffs] to sue [the owner
and manager of the mobile home park] for the
damages caused by the illegal eviction," and therefore
the plaintiffs "had an adequate remedy" under state
law. Id. at 1076.
The Supreme Court reversed the Seventh Circuit's
decision in Soldal. holding that "[t]he seizure and
removal of the Soldals' trailer home implicated
petitioners' Fourth Amendment rights." Soldal v.
Cook Ctv.. III., 506 U.S. 56 (1992).4 However, the
Court declined to address whether the removal of the
Soldals' trailer home was a deprivation of their
procedural or substantive due process rights. Id. at 60
n. 5.

4 The Court rejects any attempt by Plaintiff to apply the
Supreme Court's holding in Soldal. 506 U.S. 56 to the facts
alleged in his FAC. In Soldal, the Supreme Court held that
a police officer violates the Fourth Amendment when a
private party seizes a person's possessions and the officer
enables that seizure despite knowing that it violates the
law. Id. at 60 n. 6. 71-72. As explained above, the totahty
of the circumstances as alleged show that Sommer and.
McKay helped Plaintiff gather his personal property from
Miher's home.

44a

Here, Plaintiff makes the conclusory allegation
that defendants violated his rights under the
Fourteenth Amendment to the United States
Constitution to procedural due process. Because
Plaintiff’s FAC fails to specify what procedure he was
allegedly deprived of, the Court presumes he is
referring to his alleged "wrongful eviction" in violation
of Illinois law. Plaintiff, however, has an adequate
remedy for his alleged "wrongful eviction" from
Miller's home the Illinois Forcible Entry and Detainer
Act. See 735 ILCS 5/9-102. In fact, Count II of
Plaintiff's FAC sets forth a claim under this state
statute against Miller and other defendants.
Therefore, Plaintiff is unable to state a claim for
violation of his procedural due process rights based on
his alleged "wrongful eviction." Felder. 910 F.2d at
1396 ("[Deprivations of property resulting from
random and unauthorized acts of state actors do not
constitute a violation of the procedural requirements
of the fourteenth amendment due process clause if a
meaningful post-deprivation remedy for the loss is
available." (internal quotation marks omitted)).
Accordingly, Count I is dismissed with prejudice.
C. Count IV is Dismissed with Prejudice
Because Plaintiffs Allegations Show that
Sommer Did Not Violate His First Amendment
Right to Free Speech
Count IV sets forth a § 1983 claim against Sommer
and the Village of Lisle, alleging that Sommer
prevented Plaintiff from exercising his First
Amendment right to free speech. Plaintiff claims that
during the course of his alleged "wrongful eviction"
from Miller's home, Sommer threatened to arrest
Plaintiff for disorderly conduct "if he called anyone
else stupid, a dingbat, ding-a-ling, idiot or 'stupid

45a

bitch' FAC Tf 130. Sommer argues that Count I should
be dismissed because he is entitled to qualified
immunity. Similar to the Court's analysis above, the
Court does not reject Sommer's argument, but
concludes that there is no need to fully consider
qualified immunity because Plaintiffs allegations
show that he suffered no violation of his First
Amendment right to free speech.
Central to Plaintiffs claim is that he had a right
under the First Amendment to stand on Miller's
property and direct a continuous barrage of abusive
epithets at Miller and Doe #2, after he was instructed
to leave. Moreover, Plaintiffs claim asserts that he
had a right to direct profane insults at the two women
in close proximity during an ongoing domestic dispute
at Miller's home, wherein Sommer and McKay were
summoned by Miller to prevent a breach of the peace.
The Supreme Court has "repeatedly held that
individuals are not required to welcome unwanted
speech into their own homes and that the government
may protect this freedom." Frisbv v. Schultz. 487 U.S.
474, 485 (1988): see also Fla. B. v. Went For It. Inc..
515 U.S. 618, 625 (1995) ("[T]he State's interest in
protecting the well-being, tranquility, and privacy of
the home is certainly of the highest order in a free and
civilized society." (internal quotation marks omitted)).
Thus, Sommer's warning to Plaintiff that he would be
arrested should he continue his course of conduct did
not violate Plaintiffs First Amendment right to free
speech, because Plaintiff had no right to hurl abusive
insults at Miller and Doe #2 during an ongoing
domestic dispute at Miller's home. See Cohen v.
California. 403 U.S. 15, 21 (1971) ("[The] government
may properly act in many situations to prohibit
intrusion into the privacy of the home of unwelcome

46a

views and ideas which cannot be totally banned from
the public dialogue."))' see also Rowan v. U.S. Post Off.
Dent.. 397 U.S. 728, 737 (1970) ("The ancient concept
that 'a man's home is his castle' into which 'not even
the king may enter' has lost none of its vitality, and
none of the recognized exceptions includes any right
to communicate offensively with another."); see also
Chaplinskv v. State of New Hampshire. 315 U.S. 568,
572 (1942) ("Resort to epithets or personal abuse is not
in any proper sense communication of information or
opinion safeguarded by the Constitution, and its
punishment as a criminal act would raise no question
under that instrument." (internal quotation marks
omitted)). Accordingly, Count IV is dismissed with
prejudice.
D.CountXI is Dismissed with Prejudice Because
Plaintiffs Allegations Show that He Was Not
Injured by False Testimony or Evidence
Allegedly Fabricated by Lord and Shurtz
Count XI sets forth a § 1983 claim against the City
of Wheaton. Lord, and Shurtz. Plaintiff claims that
Lord and Shurtz conspired to violate his
constitutional rights by manufacturing false claims
and false evidence against him. Lord and the City of
Wheaton argue that Count XI should be dismissed
because Plaintiff fails to allege any violation of his
constitutional rights.
"In order to state a claim under § 1983, a plaintiff
must sufficiently allege that (1) a person acting under
color of state law (2) deprived him of a right, privilege,
or immunity secured by the Constitution or laws of the
United States." London. 600 F.3d at 745-46. In the
context of § 1983 claims involving fabrication of
evidence by a police officer, a plaintiff must allege that

47a

he was injured by the officer's act of fabricating false
evidence against him. Whitlock v. Brueggemann. 682
F.3d 567, 582 (7th Cir. 2012). In other words, "if an
officer ... fabricates evidence and puts that fabricated
evidence in a drawer, making no further use of it, then
the officer has not violated due process." IdHere, Plaintiff alleges that Lord called him and
falsely accused him of threatening Shurtz. Plaintiff
also contends that Lord threatened to provide false
testimony to a DuPage County Court for the purpose
of obtaining a warrant for Plaintiffs arrest, and that
Lord and Shurtz conspired to manufacture evidence
against him. However, despite these bald-faced
allegations, Plaintiff does not allege that he was ever
arrested or prosecuted in connection with any false
testimony or evidence allegedly fabricated by Lord or
Shurtz. In fact, Plaintiff fails to allege that Lord took
any further action other than making the false
accusations and threats against him during the phone
call. Thus. Plaintiffs allegations show that he incurred
no actual injury as the result of false testimony or
evidence allegedly fabricated by Lord or Shurtz.
Moreover, the false accusations and threats that Lord
allegedly made to Plaintiff cannot alone establish a
constitutional violation. Patton v. Przvbvlski. 822
F.2d 697, 700 (7th Cir. 1987) (citing Paulv, Davis. 424
U.S. 693, 711-12 (1976) (stating that derogatory and
defamatory remarks made by a police officer do not
amount to a violation of due process). Accordingly,
Count XI is dismissed with prejudice.
E. Count XIII is Dismissed with Prejudice
Because Plaintiff Fails to State a Cognizable
Claim and His Allegations Show that He Was
Not Injured by any False Evidence or a False

48a

Criminal Complaint Allegedly Fabricated by
Doe #3 and Miller
Count XIII sets forth a § 1983 "abuse of process"
claim against the Village of Lisle, Doe #3, and Miller.
Plaintiff claims that Doe #3 (an unidentified Lisle
police officer) and Miller conspired to violate
Plaintiffs constitutional rights by manufacturing
false evidence and filing a false criminal complaint
against him for the purpose of extorting money from
Plaintiff and coercing him into voluntarily dismissing
the instant lawsuit. The Village of Lisle argues that
Count XIII must be dismissed with prejudice as to all
named defendants because there is no cognizable §
1983 claim for "abuse of process" available to Plaintiff.
The Court agrees.
The Seventh Circuit has held that "abuse of
process is not a free-standing constitutional tort if
state law provides a remedy for abuse of process."
Adams v. Rotkvich. 325 F. App'x. 450, 453 (7th Cir.
2009). Illinois law provides a remedy for abuse of
process claims. Podolsky v. Alma Energy Corn.. 143
F.3d 364, 372 (7th Cir. 1998). Therefore, Plaintiffs
abuse of process claim is not cognizable under § 1983.
Moreover, identical to the Court's analysis above,
Plaintiff fails to allege that he suffered an injury in
connection with the false evidence and criminal
complaint purportedly fabricated by Miller and Doe
#3. Whitlock. 682 F.3d at 582. Accordingly, Count XIII
is dismissed with prejudice.
F. Count XIV is Dismissed with Prejudice
Because Plaintiffs Allegations Show that He
Was Not Injured by False Evidence Allegedly
Fabricated by Anders and Miller

49a

Count XIV sets forth a claim entitled "Delusion of
Home Invasion" under § 1983 against the Village of
Lisle, Anders, and Miller. Plaintiff claims that Anders
and Miller conspired to violate his rights under the
First, Fourth, and Fourteenth Amendments by
manufacturing false claims and evidence to support a
criminal complaint against him for home invasion.
Anders argues that Count XIV should be dismissed
with prejudice because Plaintiff fails to allege he
suffered any injury resulting from Ander's alleged
fabrication of evidence and threats of arrest and
prosecution. The Court agrees.
Count XIV merits little attention because it is
substantively the same claim as Count XI. Plaintiff
alleges that Anders conspired with Miller to
manufacture false testimony and evidence against
him but fails to allege that he suffered any injury—
e.g. that he was arrested as the result of the false
testimony or evidence. Whitlock. 682 F.3d at 582 (7th
Cir. 2012). Further, Anders' alleged threats and false
accusations are insufficient to support Plaintiffs
claim. Patton. 822 F.2d at 700. Accordingly, Count
XIV is dismissed with prejudice.
G. Count XVI is Dismissed with Prejudice
Because Plaintiffs Allegations are Conclusory
and
He is
Unable to Establish Any
Constitutional Violation
Count XVI sets forth a § 1983 Monell claim against
the Village of Lisle. Plaintiff alleges that the actions
of Sommer, McKay, Anders, Doe #3, and other
unknown Lisle police officers were performed under
the authority of one or more de facto policies of the
Village of Lisle, its police department, and the Lisle
Chief of Police. Plaintiff claims the de facto policies
included: (1) the failure to hire, train, supervise,
discipline, transfer, monitor, counsel and/or otherwise

50a

control police officers who commit unlawful acts
including wrongful evictions, extortion, and the
manufacture of false evidence and claims; (2) the
police code of silence; and (3) the encouragement of
wrongful convictions, extortion, and manufacture of
false evidence and claims. The Village of Lisle argues
that Count XVI should be dismissed because Plaintiffs
allegations amount to only a "formulaic recitation of
the elements of a" Monell claim. Iqbal. 556 U.S. at
678. The Court agrees.
"In a § 1983 case, a city or other local governmental
entity cannot be subject to liability unless the harm
was caused in the implementation of 'official
municipal policy.— Lozman v. City of Riviera Beach.
Fla.. 138 S. Ct. 1945, 1947 (2018) (quoting Monell v.
New York City Dept, of Social Servs.. 436 U.S. 658,
691 (1978)). "A municipal body may be liable for
constitutional violations 'pursuant to a governmental
custom even though such a custom has not received
formal approval through the body's official
decisionmaking channels."' Gill v. City of Milwaukee.
850 F.3d 335, 344 (7th Cir. 2017) (quoting Monell. 436
U.S. at 690-91)). However, "[t]o succeed on this de
facto custom theory, the plaintiff must demonstrate
that the practice is widespread and that the specific
violations complained of were not isolated incidents."
Id. "At the pleading stage, then, a plaintiff pursuing
this theory must allege facts that permit the
reasonable inference that the practice is so
widespread so as to constitute a governmental
custom." Id.
Here, Plaintiff seeks to attribute the alleged
actions of Sommer, McKay. Anders, and Doe #3 to
various de facto policies of the Lisle police
department. However, Plaintiff fails to plausibly

51a

allege that the defendants' actions were anything
more than isolated incidents, which are insufficient to
support his claim based on the theory of a de facto
policy. See Id. (citing McCauley v. City of Chicago. 671
F.3d 611, 618 (7th Cir. 2011)) ("The specific actions of
the detectives in [plaintiffs] case alone, without more,
cannot sustain a Monell claim based on the theory of
a de facto policy."). In short, Count XVI amounts to
nothing more than "[b]oilerplate allegations of a
municipal policy," and therefore lacks the necessary
factual support. Sivard v. Pulaski County. 17 F.3d
185,188 (7th Cir. 1994). Moreover as explained above,
the Court has concluded that Plaintiffs allegations
show that his constitutional rights were not violated
by the actions of Sommer, McKay, Anders, and Doe
#3. Therefore, Plaintiff is unable to prevail on his
Monell claim against the Village of Lisle. Accordingly,
Count XVI is dismissed with prejudice.
III. CONCLUSION
For the aforementioned reasons. Defendant's
motions to dismiss are granted. Counts I, IV, XI, XIII,
XIV, and XVI of Plaintiffs FAC are dismissed with
prejudice. Having resolved all federal causes of action,
the Court relinquishes jurisdiction over Plaintiffs
remaining state law claims pursuant to 28 U.S.C. §
1367(c)(3). See City of Chicago v. Int.'l College of
Surgeons. 522 U.S. 156, 172-74 (1997); see also Groce
v. Eli Lilly & Co.. 193 F.3d 496, 500-01 (7th Cir. 1999).
Civil case terminated.
IT IS SO ORDERED.
ENTER:
(Charles Norgle signature)

52a

CHARLES RONALD NORGLE, District
Judge
United States District Court
DATE: August 14, 2018

53a

APPENDIX E

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS
EASTERN DIVISION
GERALD DIX,
Plaintiff,

)
)

) No. 17 CV 6561
v.

)

ED ELMAN FINANCIAL
SERVICES, LLC et al„
Defendants.

) Hon. Charles
Norgle
)
)

R.

)
)
)

OPINION AND ORDER
Pro se Plaintiff Gerald Dix ("Plaintiff') brings this
action against thirteen separate defendants,
including Edelman Financial Services, LLC
("Edelman") and its alleged agents, Jane Doe #1 ("Doe
#1") and Jane Doe #2 ("Doe #2"). The Court, sua
sponte, struck Plaintiffs original Complaint, finding
that it was "replete with redundant, impertinent, and
scandalous allegations." October 3, 2017 Order, Dkt.
12. Thereafter, Plaintiff filed his First Amended

54a

Complaint ("FAC"), totaling forty-four pages1 and
alleging nineteen separate claims.
Plaintiffs FAC asserts the following claims
against Edelman and its alleged agents: Count V,
Conspiracy to Defraud; Count VI, Fraudulent
Misrepresentation; Count VIII. Conversion and
Trespass to Chattels; Count X, Negligence; Count
XVII, Intentional Infliction of Emotional Distress; and
Count XVIII. Vicarious Liability. Before the Court is
Edelman's motion to dismiss pursuant to Federal
Rules of Civil Procedure 9(b) and 12(b)(6). For the
reasons that follow, the motion is granted.

I. BACKGROUND
Plaintiffs FAC revolves around what he views as a
"wrongful eviction" from a residence in Lisle, Illinois,
owned by Defendant Theresa Miller ("Miller").
According to Plaintiff, he was engaged in a "platonic
relationship" with Miller. He also claims Miller was
his landlord. FAC H 21, 26. As previously noted by
the Court in its October 3, 2017 Order, Plaintiffs case
"smacks of a domestic dispute," given that all of his
claims are related in some way to his relationship
with Miller.
The FAC asserts that after Miller lost her job in
May 2017, she met with an Edelman financial advisor,
Doe #1, in order to withdraw funds from her
investment portfolio. Plaintiff asserts that Doe #1
1 Plaintiffs original Complaint totaled thirty-three pages.
After the Court instructed Plaintiff that his Complaint was
replete with redundant, impertinent, and scandalous
allegations, he filed his First Amended Complaint,
containing an additional eleven pages, exclusive of
exhibits.

55a

refused to release funds from Miller's portfolio, and
instead advised Miller to "steal financial funds from
the Plaintiff and "convince the Plaintiff that he
should obtain full-time employment" in order to
replace her lost income. Id- It 36, 45. Plaintiff further
asserts that Doe #1 advised Miller that she should
"sell her Lisle home and go live in the ghetto with her
mother and stepfather." Id. t 39. Plaintiff also asserts
that after Miller decided to move from her home in
Lisle, Doe #1 recommended Doe #2 as a "moving
professional," when Doe #2 was actually a "lazy
elderly woman who assisted Miller in destroying and
stealing Plaintiffs personal property. Id. HI 87-88,
252
II. DISCUSSION
A. Standard of Review
Under Rule 9(b), a plaintiff alleging fraud "must
state with particularity the
circumstances
constituting fraud." Fed. R. Civ. P. 9(b). The complaint
must allege "the 'who, what, when, where, and how’
of the fraud—'the first paragraph of any newspaper
story."’ Pirelli Armstrong Tire Corn. Retiree Med.
Benefits Trust v. Walgreen Co.. 631 F.3d 436, 441-42
(7 th Cir. 2011) (quoting U.S. ex rel. Lusbv v. RollsRovce Coro.. 570 F.3d 849, 854 (7th Cir. 2009)). "Rule
9(b) applies to 'averments of fraud.’ not [only] claims
of fraud, so whether the rule applies will depend on
the [plaintiffs] factual allegations." Borsellino v.
Goldman Sachs Group. Inc.. 477 F.3d 502, 507 (7th
Cir. 2007).
"Although a party need not plead 'detailed factual
allegations' to survive a [Rule 12(b)(6)] motion to
dismiss, mere 'labels and conclusions' or 'a formulaic
recitation of the elements of a cause of action will not

56a

do."' Berger v. Nat'l Collegiate Athletic Ass'n. 843 F.3d
285, 290 (7th Cir. 2016) (quoting Bell Atlantic Corp. v.
Twomblv. 550 U.S. 544, 555 (2007)). "Instead, [t]o
survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to state a
claim for relief that is plausible on its face." Id. (citing
Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009)) (internal
quotation marks omitted). Complaints that fail to
state a plausible basis for relief must be dismissed.
Moore v. Mahone. 652 F.3d 722, 725 (7th Cir. 2011).
B. Plaintiffs FAC Fails to Comply with the
Court's October 3, 2017 Order
Edelman first argues that the FAC should be
dismissed because it essentially recites the same
allegations as the original Complaint that the Court
struck in its October 3, 2017 Order. Under Rule 12(f).
"the court may strike from a pleading any redundant,
immaterial, impertinent, or scandalous matter."
Edelman is correct that Plaintiff has failed to comply
with the Court's October 3, 2017 Order. Despite
Plaintiffs amendments, the FAC is still replete with
redundant, immaterial, impertinent, and scandalous
allegations. Perhaps the most egregious example is
Plaintiffs use of nearly an entire page of the FAC to
dispute the Seventh Circuit Order in Case No. 143015, wherein the Seventh Circuit warned Plaintiff
that further frivolous appeals may result in sanctions.
Plaintiffs blatant refusal to comply with the Court's
October 3, 2017 Order is sufficient alone to dismiss his
claims against Edelman with prejudice. See Salata v.
Weyerhaeuser Co.. 757 F.3d 695, 699 (7th Cir. 2014)
("A court may dismiss an action with prejudice 'if the
plaintiff fails to. . .comply with [the Federal Rules of
Civil Procedure] or any court order.' (quoting Fed. R.
Civ. P. 41(b)); see also Stanard v. Nygren. 658 F.3d

57a

792, 801 (7th Cir. 2011) ("The principle that leave to
amend should be freely granted does not require
district judges to repeatedly indulge [litigants] who
show little ability or inclination to comply with the
rules.")- Further, the Court reminds Plaintiff that his
pro se status does not shelter him from sanctions
pursuant to Rule 11. Vukadinovich v, McCarthy. 901
F.2d 1439, 1445 (7th Cir. 1990).
C. Plaintiff Fails to State a Claim for Conspiracy
to Defraud
Next, Edelman argues that Plaintiffs allegations of
fraud fail to satisfy the heightened pleading standards
under Rule 9(b). In Count V, Plaintiff asserts that
Miller, Edelman, and Doe #1 "conspired together to
defraud financial funds from. . . Plaintiff." FAC 234.
Under Illinois law, "[t]he elements of a cause of action
for conspiracy to defraud are: (1) a conspiracy; (2) an
overt act of fraud in furtherance of the conspiracy; and
(3) damages to the plaintiff as a result of the fraud."
Bosak v. McDonough. 549 N.E.2d 643, 646 (Ill. App.
1989).
Here, despite the voluminous nature of the FAC,
Plaintiff fails to set forth with particularity the facts
and circumstances constituting the claimed
conspiracy to defraud. Although the FAC claims
Plaintiff has in depth knowledge of certain investment
advice given to Miller by Doe #1, the FAC fails to
provide any significant details regarding the identity
of Doe #1. Further, Plaintiffs conclusory allegation
that that Miller, Edelman, and Doe #1 conspired
together to defraud him is inconsistent with
numerous other allegations in the FAC. Most notably,
Plaintiff asserts that Doe #1 instructed Miller to
convince Plaintiff to obtain full-time employment to

58a

replace Miller's lost income and that Doe #1 advised
Miller to force Plaintiff to finance her while she was
unemployed. Put differently, the FAC attempts to
contort Doe #l's alleged advise to Miller into an
agreement to defraud Plaintiff. In short. Plaintiffs
sparse, conclusory, and inconsistent allegations are
insufficient to support a plausible claim for conspiracy
to defraud, let alone state the claim with requisite
particularity. Ackerman v, N.W. Mut. Life Ins. Co..
172 F.3d 467, 469 (7th Cir. 1999) (stating that the
purpose of Rule 9(b) is to dissuade claims of fraud
brought irresponsibly by people who have [allegedly]
suffered a loss and want to find someone to blame for
it"). Accordingly. Plaintiffs claim against Edelman for
conspiracy to defraud is dismissed.
D. Plaintiff Fails to State a Claim for Fraudulent
Misrepresentation
In Count VI, Plaintiff attempts to set forth a claim
for fraudulent misrepresentation alleging that Doe #1
represented Doe #2 as a professional mover and that
Doe #2 represented herself as a professional mover,
when it was known that Doe #2 was not a professional
mover. Under Illinois law, the elements for a cause of
action for fraudulent misrepresentation are: "(1) a
false statement of material fact; (2) known or believed
to be false by the person making it; (3) an intent to
induce the plaintiff to act: (4) action by the plaintiff in
justifiable reliance on the truth of the statement; and
(5) damage to the plaintiff resulting from such
reliance." Doe v. Pilling. 888 N.E.2d 24, 35-36 (Ill.
2008).
Here, similar to the Court's analysis above,
Plaintiff fails to allege with particularity the identity
of Doe #2. The FAC claims that Plaintiff was present

59a

when Doe #2 came to Miller's home in Lisle on August
22, 2017. However, the FAC contains no details
regarding the identity of Doe #2 other than the
scandalous allegation that she was a "lazy elderly
woman." FAC f 88. Further, the FAC states that Doe
#1 recommended Doe #2 as a professional mover to
Miller, not to Plaintiff. But the FAC is silent as to how
Doe #1 intended to induce Plaintiff into hiring Doe #2
or how Plaintiff came to rely on the recommendation
made to Miller alone, Rather, the FAC asserts in
conclusory fashion that "Plaintiff and Miller relied on
Doe #2 as a professional mover." Id. ^ 241. Miller's
reliance is irrelevant however, because she is a
defendant in this case. The FAC also emphasizes that
Doe #2 was readily identifiable as someone who was
not a professional mover. Id. 88-91. Thus, taking
Plaintiff's allegations as true, he could not have
justifiably relied on Doe #l's recommendation of Doe
#2 to Miller. Accordingly, Plaintiffs claim against
Edelman for fraudulent misrepresentation is
dismissed.
E. Plaintiff Fails to Allege Doe #2 was Edelman's
Agent and Otherwise Fails to State a Claim for
Conversion or Trespass to Chattels
Count VII of the FAC asserts claims for conversion
and trespass to chattels. Plaintiff contends that Doe
#2, along with Miller, destroyed and stole Plaintiffs
personal property, while Lisle Police Officers Rob
Sommer ("Sommer") and Sean McKay ("McKay")
restrained Plaintiff outside of Miller's Lisle home
during what he refers to as a "wrongful eviction."
Edelman argues that to the extent Plaintiff seeks
relief against Edelman in Count VIII—Plaintiff does
not specifically refer to Edelman in Count VIII—he

60a

fails to adequately allege that Doe #2 was Edelman's
agent. The Court agrees.
The FAC fails to even plausibly suggest Edelman
exercised control over Doe #2. Chemtool. Inc, v.
Lubrication Techs.. Inc.. 148 F.3d 742. 745 (7th Cir.
1998) (Under Illinois law, "[title test to determine
whether a principal-agent relationship exists is
whether the alleged principal has the right to control
the agent, and whether the alleged agent can affect
the legal relationships of the principal."). Further, the
FAC fails to allege that Edelman acted in a manner
which would lead a reasonably prudent person to
believe Doe #2 was authorized to act on behalf of
Edelman. Thus, Plaintiff fails to allege that Doe #2
was an agent of Edelman under the doctrine of
apparent authority. Gilbert v. Sycamore Mun. Hosn.,
622 N.E.2d 788, 795 (Ill. 1993) (Apparent authority is
"the authority which a reasonably prudent person,
exercising diligence and discretion, in view of the
principal's conduct, would naturally suppose the
agent to possess.").
Plaintiff also fails to properly allege the requisite
elements for his claims of trespass to chattels and
conversion. Under Illinois law, the common law tort of
trespass to chattel "provides redress for unauthorized
use of or intermeddling with another's physical
property." Barnes v. N.W. Repossession. LLC. 210 F.
Supp. 3d 954, 971 (N.D. Ill. 2016) (emphasis added).
Further, to establish a claim of conversion under
Illinois law, the plaintiff must prove, inter alia, that
"he has an absolute and unconditional right to the
immediate possession of the property." Zissu v. IH2
Pron. Illinois. L.P.. 157 F. Supp. 3d 797, 803 (N.D. Ill.
2016).

61a

Here, the FAC asserts that Doe #2 was authorized
by officers Sommer and McKay to remove Plaintiffs
personal property from Millers home, and that
Plaintiff was not permitted to enter the home. FAC f
122. Thus, the FAC concedes that Doe #2's actions
were authorized and that Plaintiff did not have the
right to immediate possession of his personal
property. Accordingly. Plaintiffs claims against
Edelman for trespass to chattels and conversion are
dismissed.
F. Plaintiff Fails to State a Claim for Negligence
In Count X, Plaintiff asserts a claim for negligence
against Edelman and Doe #1 for their purported
breach of an "implied covenant of good faith and fair
dealing," arising from Doe #l's advice to Miller that
she should take funds from Plaintiff rather than
withdraw funds from her investment portfolio. FAC U
269. According to Plaintiff, the implied covenant of
good faith and fair dealing was part of an oral contract
he formed with Miller governing their landlord-tenant
relationship. FAC U 42. Edelman argues that Count X
should be dismissed because Plaintiff fails to properly
allege that Edelman owed Plaintiff a legal duty. The
Court agrees. Under Illinois law, a claim of negligence
requires the Plaintiff to allege: "(I) the existence of a
duty of care owed to the plaintiff by the defendant; (2)
a breach of that duty, and (3) an injury proximately
caused by that breach." Guvenoz v. Target Corn.. 30
N.E.3d 404, 422 (Ill. App. 2015). "Whether a duty
exists in a particular case is a question of law to be
determined by the court." Ward v. K Mart Corn.. 554
N.E.2d 223, 226 (111. 1990).
Here, the FAC claims that the oral contract was
between Plaintiff and Miller alone. Thus, even if such

62a

a contract existed, it would not give rise to a duty owed
by Edelman to Plaintiff. Rackv v. Belfor USA Group.
Inc.. 83 N.E.3d 440, 468 (Ill. App. 2017) ("a
defendant's duty will not be extended beyond the
duties described in the contract" (internal quotations
marks omitted)). Moreover, "an alleged violation of
the implied covenant of good faith cannot form the
basis for an independent tort action." Wilson v. Career
Educ. Com.. 729 F.3d 665, 673 (7th Cir. 2013). The
FAC also concedes that Plaintiff had no relationship
with Edelman and that Plaintiff never even
communicated directly with Doe #1. Put simply, the
FAC offers no facts under which Edelman owed a duty
of care to Plaintiff. Accordingly, Plaintiff's claim
against Edelman for negligence is dismissed.
G. Plaintiff Fails to State a Claim for Intentional
Infliction of Emotional Distress
In Count XVII. Plaintiff asserts a claim for
intentional infliction of emotion distress against all
Defendants. Under Illinois law, order to state a cause
of action for intentional infliction of emotional
distress, a party must allege facts which establish
that: (1) the defendant's conduct was extreme and
outrageous; (2) the defendant either intended that his
conduct should inflict severe emotional distress, or
knew that there was a high probability that his
conduct would cause severe emotional distress; (3) the
defendant's conduct in fact caused severe emotional
distress." Doe v. Calumet City. 641 N.E.2d 498. 506
(Ill. 1994). Liability for intentional infliction of
emotion distress "'does not extend to mere insult,
indignities, threats, annoyances, petty oppressions or
trivialities' and can attach 'only in circumstances
where the defendant's conduct is so outrageous in
character, and so extreme in degree, as to go beyond

63a

all possible bounds of decency.' Hernandez v. Dart.
635 F. Supp. 2d 798. 813 (N.D. Ill. 2009) (quoting
Thomas v. Fuerst. 803 N.E.2d 619, 625 (Ill. App.
2004)).
Here, Plaintiff fails to allege that Edelman engaged
in any "extreme and outrageous" conduct. Chisholm v.
Foothill Capital Com.. 940 F. Supp. 1273, 1286 (N.D.
1996) (dismissing plaintiffs claim for intentional
infliction of emotional distress because plaintiffs
allegations, taken as true, did not rise to the level of
outrageous conduct). Rather, Edelman's alleged
conduct amounts to de minimis indignities or
trivialities at worst. Accordingly, Plaintiffs claim
against Edelman for intentional infliction of
emotional distress is dismissed.
H.Vicarious Liability is Not an Independent
Cause of Action
In Count XVIII, Plaintiff asserts a claim for
vicarious liability against Edelman, based on Doe #l's
purported conduct as an agent of Edelman. However,
under Illinois law, "vicarious liability is not itself a
claim or cause of action." Wilson v. Edward Hosn.. 981
N.E.2d 971, 980 (Ill. 2012). Accordingly, Count XVIII
is dismissed.
III. CONCLUSION
For the foregoing reasons, Edelman's motion to
dismiss is granted. Counts V, VI. VIII, X, XVII, and
XVIII of Plaintiffs FAC are dismissed with prejudice
to the extent that these counts assert claims against
Edelman. Doe #1, and/or Doe #2.
IT IS SO ORDERED.
ENTER:

64a

(Charles R Norgle signature)
CHARLES RONALD NORGLE, District
Judge
United States District Court
DATE: February 28, 2018

Case: l:17-cv-06561 Document #: 105-3 Filed: 06/18/18 Page 1 of 1 PagelD #:772

>

gdlx3@hotmail.com

2
Prom:
Sent:
To:
Subject:

Terfim14 «temm14@gmail.com>
Monday, July 24, 2017 7:41 PM
Gerry
Should I ask girl to rent out basement. Pay extras for laundry use diwnstaits bathroom
shower. Eventually get another fridge /Snack rfood cabinet and youovd your office to
third floor get minifridge with icemaker and closet for your office on third ...

a

F-1

X

Ol
U1
0)

■„n -t
New message

t) Reply j v

MU
(Delete

0 Arthlve

£j Junk v

m

MM
IQ More to v

t

Q categorize ^

si'

X

(No subject)
©

Ftep; fcr Hollow up. Start by 11/Z/2018. Pae by T1/?/2fii8,

Terri
Moo W29/20U 1ft® AM
To: Ydu

<3

®J

-»

--

Cigna denied rnyMRI request I have a feeling the podiatrist’s office did not prove their case veiy well, I was practically In tears
this morning when I left work, I had to take a vreoprofen while I ayes driving homo. The only tiling keeping me functioning is.
taping my foot and the pain metis, which I have not been taking before or during work. The pediatrist fe not In today. I ant
thinking I might just try going to ER and see if I can get a boot or MR1 there. Only problem Is I have PT now and have to work and
can't afford to lose massive amounts of Sleep or cell in sick, I am so pissed off at podiatrist's office. 6 didn't want to be a Mtrih, too
pushy, or tell someone else how So do their job, so I didn't posh the Issue very hart, t should have. I could have been healed by
now instead of being miserable and playing games. My PT is running out so I can't hsvc them nigger rig my foot, so I can work
. Ugh!!! I

>
T)
H
5ZJ
O
i—i

o

<T>
CT>
0)

